IN THE SUPREME COURT OF THE UNITED STATES
Nos. 19-368 & 19-369
FORD MOTOR COMPANY,

Petitioner,

v.

et al.,
Respondents.

MONTANA EIGHTH JUDICIAL DISTRICT COURT,

FORD MOTOR COMPANY,

Petitioner,

V.

ADAM BANDEMER,

Respondent.

CERTIFICATE OF COMPLIANCE WITH RULE 33.l(g)
I, Andrew J. Pincus, counsel for amici curiae, hereby certify that, according to
the word-count tool in Microsoft Word, the Brief of the Chamber of Commerce of the
United States of America, the National Association of Manufacturers, and the
American Tort Reform Association as Amici Curiae in Support of Petitioner consists
of 7,200 words, including footnotes and excluding the sections enumerated by Rule
33.l(d). The Brief therefore complies with Rule 33.l(g).

Andrew J. Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
a pincus@mayerbrown.com

